            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
          STATE OF ILLINOIS
     FOR THE FISCAL YEAR ENDED
             JUNE 30, 2002

     October 2003   A-77-04-00002




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY

MEMORANDUM
Date:   October 23, 2003                                                   Refer To:

To:     Candace Skurnik
        Director
        Management Analysis and Audit Program Support Staff

From: Assistant Inspector General
         for Audit

Subject: Management Advisory Report: Single Audit of the State of Illinois for the Fiscal Year
        Ended June 30, 2002 (A-77-04-00002)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Illinois for the Fiscal Year ended June 30, 2002. Our objective was
        to report internal control weaknesses, noncompliance issues, and unallowable costs
        identified in the single audit to SSA for resolution action.

        KPMG LLP performed the audit. Results of the desk review conducted by the
        Department of Health and Human Services (HHS) have not been received. We will
        notify you when the results are received if HHS determines the audit did not meet
        Federal requirements. In reporting the results of the single audit, we relied entirely on
        the internal control and compliance work performed by the KPMG LLP and the reviews
        performed by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Illinois Disability Determination Services (DDS) performs disability determinations
        under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
        reimbursed for 100 percent of allowable costs. The Illinois Department of Human
        Services (DHS) is the Illinois DDS’s parent agency.
Page 2 – Candace Skurnik


The single audit reported the following findings:

1. DHS did not submit accurate and timely expenditure information for Federal
   programs to the Illinois Office of the Comptroller (IOC). DHS’s corrective action
   indicates that its procedures for reporting Federal expenditures will be reviewed and
   improved (Attachment A, pages 1 through 3).

2. DHS did not review or re-certify the accuracy of clearance patterns identified in the
   Cash Management Improvement Act agreement for SSA’s disability programs. The
   corrective action plan indicates that clearance patterns will be re-certified based on
   accurate payroll warrant documentation (Attachment A, pages 4 and 5).

We recommend that SSA ensures that DHS implemented procedures to:

1. Report DDS expenditures accurately and timely to the IOC.

2. Periodically review and certify the accuracy of clearance patterns used to draw funds
   for expenditures incurred under SSA’s disability programs.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency.

•   Payroll costs were directly charged to a Federal program instead of allocated
    through the public assistance cost allocation plan (Attachment B, pages 1 and 2).

•   Costs were not allocated to Federal programs in accordance with the public
    assistance cost allocation plan (Attachment B, pages 3 and 4).

Please send copies of the final Audit Clearance Document to Shannon Agee in
Kansas City and Rona Rustigian in Baltimore. If you have questions contact Shannon
Agee at (816) 936-5590.


                                                    S
                                                    Steven L. Schaeffer

Attachments

cc:
Trudy Williams, MAAPSS
                                                                                             Attachment A
                                                                                               Page 1 of 5


                                            STATE OF ILLINOIS

                                   Schedule of Findings and Questioned Costs

                                       For the Year Ended June 30, 2002

State Agency:         Illinois Department of Human Services (IDHS)

Federal Agency: A11 federal agencies

Finding 02-02     Inadequate Review of Federal Expenditures Reported by IDHS

IDHS did not accurately report its federal expenditures to the Illinois Office of the Comptroller (IOC) in a
timely manner.

The State's process for compiling the schedule of expenditures of federal awards (SEFA) requires each
state agency to complete a series of manual financial reporting forms (SCO forms) which detail by fund
the CFDA number, total program expenditures, funds passed through to subrecipients, and transfers of
program funds between state agencies for each federal program. The SCO forms are collected by the IOC
and are reviewed for any discrepancies or errors. Once all errors discrepancies have been resolved with
the responsible state agency, the finalized SCO forms are forwarded to the Illinois Office of the Auditor
General (OAG) for the compilation of the SEFA. The process for compiling the SEFA consists of OAG
personnel manually entering information reported on the SCO forms into a database. Additionally, the
OAG performs a series of analytical and verification procedures (including agreeing CFDA numbers,
program expenditures, and amounts passed through to subrecipients or passed to other state agencies to
the reporting agency's records) to ensure amounts reported are complete, accurate, and properly
presented.

During our review of the SEFA preparation process, we noted the following timeline for completing and
submitting the SCO forms by IDHS for its major programs:

                                                        B               C             D            D-A
                                        A
                                      Agency          Initial      Agency/          Date
    Fund Name            Federal     Scheduled       Agency       Comptroller     Available
                         Program     Completion     Submission    Completion      for SEFA         Total
                         CFDA #        Date            Date         Date         Preparation       Days
General Revenue           10.557
 Fund                     10.561
                          93.558
                          93.575
                          93.596
                          93.667
                          93.778       8/30/02       12/16/02        12/18/02      2/27/03         181
Vocational                84.126
Rehabilitation Fund       96.001       8/30/02        9/24/02        11/15/02      2/27/03         181
DHS Special               10.561
Purposes Trust            93.575
Fund                      93.596
                          93.667       8/30/02        9/24/02        12/18/02      2/27/03         181

                                                                                                (Continued)
                                                                                                  Attachment A
                                                                                                    Page 2 of 5
                                             STATE OF ILLINOIS

                                    Schedule of Findings and Questioned Costs

                                        For the Year Ended June 30, 2002


Early Intervention
Services Revolving
Fund                       93.778         8/30/02       10/2/02        10/16/02         2/27/03        181
Alcoholism and
Substance Abuse            84.126         8/30/02       9/19/02        11/17/02         2/27/03        181
Fund
USDA Women,
Infants, and
Children Fund              10.557         8/30/02       9/26/02        10/29/02         2/27/03        181
Community Mental
Health Medical             93.778         8/30/02       9/9/02          9/30/02         2/27/03        181
Fund
Local Initiative           93.667        8/30/02        8/30/02        10/16/02         2/27/03        181
Fund
Social Services            93.558
Block Grant Fund           93.667         8/30/02       8/30/02        10/16/02         2/27/03        181
Food Stamp and
Commodity Fund             10.551         8/30/02       9/19/02         10/8/02         2/27/03        181
WIC Redemption
Fund                       10.557         8/30/02       8/16/02        10/26/02         2/27/03        181

Additionally, we noted the following deficiencies were documented by the IOC relative to the reporting
packages submitted by IDHS:

• Amounts reported on the SCO forms submitted to the IOC did not agree to agency records.
• Correcting journal entries were required to accurately state amounts reported by IDHS.

According to OMB Circular A-133 §_ .300(d) and (e), a recipient of federal awards is required to prepare
appropriate financial statements, including the schedule of expenditures, and to ensure that audits required by
this part are properly performed and submitted when due. Additionally, the A-102 Common Rule requires that
non-Federal entities receiving Federal awards establish and maintain internal control designed to reasonably
ensure compliance with Federal laws, regulations, and program compliance requirements.

In discussing this with IDHS officials, they state the noted changes relate mostly to the complexity of the TANF,
Child Care and Title XX Grants and the problems getting information from other State agencies and the desire
to maximize federal funding.

Failure to prepare accurate SCO forms in a timely manner prevents the State of Illinois from preparing the
SEFA and completing an audit in accordance with OMB Circular A-133 which may result in the suspension of
federal funding. (Finding Code 02-02)




                                                                                                     (Continued)
                                                                                              Attachment A
                                                                                                Page 3 of 5
                                           STATE OF ILLINOIS

                                 Schedule of Findings and Questioned Costs

                                      For the Year Ended June 30, 2002


Recommendation:

We recommend IDHS review the current process for reporting federal expenditures to the IOC and implement
changes necessary to ensure the timely submission of complete and accurate forms.

IDHS Response:
Accepted. IDHS requested and was granted extensions by the IOC Director of Financial Reporting, for filing
several GAAP packages, including all of those mentioned in this finding. These extended due dates were met by
IDHS. There were only four of the eleven funds mentioned that had revisions to the SCO forms that actually
changed reimbursable costs for any of the major programs. These changes relate mostly to the complexity of the
TANF, Child Care and Title XX Grants and the desire to maximize federal funding. In order to ensure that the
Department claims all expenditures incurred by the Department and other state agencies which are eligible for
reimbursement against those federal grant programs administered by DHS, there will continue to be changes to
the amounts provided to the Comptroller prior to completing the federal grant year reports. We will review
processes to enhance procedures and endeavor to minimize the number of changes which need to be made late
in the process.

It should be noted that Department records, which were confirmed the Comptroller, show the Initial Agency
Submission Dates for GRF and EI were 10/8/02 and 9/9/02 respectively.




                                                                                                  (Continued)
                                                                                                   Attachment A
                                                                                                     Page 4 of 5
                                             STATE OF ILLINOIS

                                   Schedule of Findings and Questioned Costs

                                        For the Year Ended June 30, 2002

State Agency:       Illinois Department of Human Services (IDHS)

Federal Agency:      US Department of Agriculture (USDA)
                     US Department of Education (ED)
                     Security Administration (SSA)

Program Name:         State Administrative Matching Grants for Food Stamp Program
                      Rehabilitation Services - Vocational Rehabilitation Grants to States
                      Social Security Disability Insurance

CFDA # and Program Expenditures: 10.561 ($103,949,000)
                                 84.126 ($99,090,000)
                                 96.001 ($59,426,000)

Questioned Costs: None

Finding 02-28 Failure to Re-certify to the Accuracy of Administrative Clearance Patterns


IDHS has not reviewed or re-certified the accuracy of the clearance patterns specified in the Treasury-State
Agreement related to administrative cash draws for the Food Stamps, Vocational Rehabilitation, and Social
Security Disability Insurance (SSDI) programs.

Annually, the State of Illinois negotiates the Treasury-State Agreement (TSA) with the U.S. Department of the
Treasury (the Treasury) which details the funding techniques to be used for the draw down of federal funds.
Certain approved funding techniques utilized by the State require the use of a clearance pattern which identifies
the average number of days disbursements (warrants) take to clear the State Treasurer's account. The established
clearance pattern is then used to determine the date the State should draw down funds from the federal
government in order to minimize the time elapsing between the draw down and the State Treasurer's clearance
of funds.

In accordance with the TSA in effect for the year ended June 30, 2002, the State is required to maintain a
clearance pattern of 2.5 banking days for payroll warrants, adjusted to two days for direct deposit of employee
payments, for all three programs. Additionally, both Vocational Rehabilitation and SSDI maintain a clearance
pattern of 6.47 banking days for administrative, indirect, and program costs. These clearance patterns were
initially approved for the programs based on a review performed by the Federal Management Service (FMS)
branch of the Treasury when the TSA was established in 1993. These clearance patterns have continued to be
used in calculating any interest obligation for the year ended June 30, 2002. During our testwork, we noted
IDHS did not perform a review of the accuracy of the "outdated" clearance patterns. We also noted an IDHS
authorized official has not re-certified the accuracy of the clearance patterns within the last eight years.

According to The Money and Finance Treasury Code Regulations (31 CFR 205.8), a State shall ensure that a
clearance pattern accurately represents the flow of Federal funds and that a clearance pattern reflects seasonal or
other periodic variations in clearance activity. A State shall also ensure that a clearance pattern is auditable.
Additionally, an authorized State official shall certify that a clearance pattern corresponds to a program's
clearance activity and shall re-certify the accuracy of the clearance pattern at least every five years.
                                                                                                         (Continued)
                                                                                                Attachment A
                                                                                                  Page 5 of 5
                                            STATE OF ILLINOIS

                                  Schedule of Findings and Questioned Costs

                                       For the Year Ended June 30, 2002


In discussing these conditions with IDHS personnel, they state the Department has not been able to obtain the
necessary information to verify clearance patterns for payroll warrants, as would be necessary prior to
re-certification.

Failure to evaluate and re- certify a program's clearance pattern violates the requirement of 31 CFR 205.8 and
could result in the inaccurate calculation of IDHS' interest obligation to the Treasury. (Finding Code 02-28,
01-16)

Recommendation:

We recommend IDHS establish procedures to review and certify the accuracy of the .clearance pattern for
administrative draws at lest once every five years. Such procedures should include performing a statistical study
to compute the actual clearance pattern of each program.

IDHS Response:

Accepted. The Department has been working to obtain the necessary information to verify the clearance patterns
for payroll warrants and will re-certify all clearance patterns when the process is complete. It should be noted
that the Department did review the accuracy of clearance patterns for all costs other than payroll and those
newly developed clearance patterns were used when calculating the interest due for the Vocational
Rehabilitation and SSDI grants for the year ended June 30, 2002. Clearance patterns are not required to be
calculated for non-payroll costs under the Food Stamp Program.




                                                                                                    (Continued)
                                                                                                 Attachment B
                                                                                                   Page 1 of 4
                                            STATE OF ILLINOIS

                                  Schedule of Findings and Questioned Costs

                                       For the Year Ended June 30, 2002

State Agency:     Illinois Department of Human Services (IDHS)

Federal Agency: US Department of Education (USDE)
                US Department of Health and Human Services (USDHHS)

Program Name: Rehabilitation Services - Vocational Rehabilitation Grants to States

CFDA # and Program Expenditures:            84.126 ($99,090,000)

Questioned Costs: $2,785,719

Finding 02-20 Failure to Allocate Payroll Costs as Defined in PACAP

IDHS directly charged payroll expenditures to its Vocational Rehabilitation program that are required to be;
allocated through the Public Assistance Cost Allocation Plan (PACAP).

IDHS administers several federal and state programs to assist Illinois families in achieving self-sufficiency,
independence, and improved health. In administering each of these programs, IDHS incurs significant
expenditures, which are directly and indirectly attributable to the administration of its programs. In order to
allocate costs to the programs to which they are attributable, IDHS has submitted a PACAP to the USDHHS
describing its overall organizational structure, the federal programs it administers, and the methodologies it has
developed to allocate administrative expenditures to its federal programs. The PACAP is submitted to USDHHS
periodically for review and approval of the allocation methodologies used by IDHS. IDHS has developed the
methodologies for allocating costs to its programs, which IDHS believes best represent the actual costs
associated with the program.

During our review of payroll and fringe benefit costs charged to federal programs, we noted cost centers related
to the Office of Rehabilitation Services were directly charged 100% to the Vocational Rehabilitation program.
Per the PACAP, however, cost centers associated with the Office of Rehabilitation Services are required to be
allocated based upon random moment time studies. Additionally, time and effort certifications do not exist to
support directly charging 100% of these payroll expenditures to the Vocational Rehabilitation program. Payroll
and fringe benefit expenditures directly charged to the Vocational Rehabilitation program totaled $39,068,951
for the year ended June 30, 2002; whereas, payroll and fringe benefit expenditures as calculated per random
moment time studies totaled $36,283,232.

According to 45 CFR part 95.507, a cost allocation plan shall describe the procedures used to identify, measure,
and allocate all costs to each of the programs operated by the State agency and contain sufficient information
and detail to permit the Division of Cost Allocation (DCA) to make an informed judgment on the correctness
and fairness of the procedures for identifying, measuring, and allocating all costs to each of the programs
operated by the State agency. Additionally, OMB Circular A-87, Cost Principles for State, Local,. and Indian
Tribal Governments, establishes principles and standards for determining costs for federal awards carried out
through grants, cost reimbursement contracts, and other agreements with state and local governments. To be
allowable under federal awards, costs must meet certain general criteria. Those criteria require, among other
things , that the expenditure be adequately documented. If an employee works solely on one federal program
and 100% of their salary or wages are charged to the program, IDHS must obtain a certification from the
employee or their direct supervisor that 100% of their time is spent. on the single federal program. This
                                                                                                      (Continued)
                                                                                                 Attachment B
                                                                                                   Page 2 of 4
                                             STATE OF ILLINOIS

                                   Schedule of Findings and Questioned Costs

                                        For the Year Ended June 30, 2002


certification must be kept on file and is required to be obtained at least every six months.

In discussing this occurrence with IDHS officials, they state the cause is due to the Department not utilizing the
RMS methodology in the PACAP amendment and not reconciling to the actual expenditures claimed to
determine the correct amount charged to the Vocational Rehabilitation grant.

Failure to ensure that methods used to allocate costs are consistent with the PACAP could result in federal
programs not receiving their proportional share of expenditures resulting in unallowable costs. (Finding Code
02-20)

Recommendation:

We recommend IDHS allocate costs to its Vocational Rehabilitation program using the allocation methods
defined in the approved PCAP or amend the PACAP to reflect the direct allocation method currently being used.
Additionally, we recommend IDHS obtain effort certifications for all payroll charges directly charged to its
federal programs.

IDHS Response:

Accepted. The Department anticipates retroactive approval of its RMS methodology and will reconcile RMS
results to dollars previously reported to determine the final amount to be charged to the Vocational
Rehabilitation program for FY’02.




                                                                                                     (Continued)
                                                                                                Attachment B
                                                                                                  Page 3 of 4
                                            STATE OF ILLINOIS

                                  Schedule of Findings and Questioned Costs

                                       For the Year Ended June 30, 2002

State Agency:        Illinois Department of Human Services (IDHS)

Federal Agency:     US Department of Health and Human Services (USDHHS)

Program Name:        Temporary Assistance for Needy Families
                     Medicaid Cluster
                     Block Grants for Prevention and Treatment of Substance Abuse

CFDA # and Program Expenditures: 93.558 ($474,348,000)
                                 93.775 / 93.777 / 93.778 ($4,686,508,000)
                                 93.959 ($67,417,000)

Questioned Costs:               Cannot be determined

Finding 02-25                   Inaccurate Allocation of Costs

IDHS did not accurately allocate costs to its federal programs in accordance with the Public Assistance Cost
Allocation Plan (PACAP).

IDHS administers several federal and state programs to assist Illinois families in achieving self-sufficiency,
independence, and health. In administering each of these programs, IDHS incurs significant expenditures which
are directly and indirectly attributable to the administration of its programs. In order to allocate costs to the
programs to which they are attributable, IDHS has submitted a PACAP to the USDHHS describing its overall
organizational structure, the federal programs it administers, and the methodologies it has developed to allocate
administrative expenditures to its federal programs. The PACAP is submitted to USDHHS periodically for
review and approval of the allocation methodologies used by IDHS. IDHS has developed the methodologies for
allocating costs to its programs, which IDHS believes best represent the actual costs associated with the
program.

During our review of cost allocated to federal programs during the quarter ended March 31, 2002, we noted the
following errors in the application of allocation methodologies:

•   The allocation method used for the Office of Alcohol and Substance Abuse (OASA) did not include all the
    service program units for State programs administered by OASA, which resulted in the federal programs
    being allocated more than their proportionate share of costs.
•   Costs allocated for the Community Services Division were understated by $243,000 resulting in an under
    allocation of costs to the state and federal programs.

According to 45 CFR part95.517, a State must claim costs associated with a program in accordance with its
approved cost allocation plan. Additionally, the A-102 Common Rule requires non-Federal entities receiving
Federal awards establish and maintain internal control designed to reasonably ensure compliance with Federal
laws, regulations, and program compliance requirements.

In discussing this occurrence with IDHS officials, they state the one error noted was due to an oversight in
submitting information by a program area and the other error was due to not updating formulas correctly in the
calculation worksheet.                                                                         (Continued)
                                                                                         Attachment B
                                                                                           Page 4 of 4
                                      STATE OF ILLINOIS

                             Schedule of Findings and Questioned Costs

                                  For the Year Ended June 30, 2002

Failure to accurately allocate costs in accordance with the PACAP may result in disallowances of costs.
(Finding Code 02-25)

Recommendation:

We recommend IDHS review the process and procedures in place to prepare cost allocation calculations and
supporting schedules and implement changes necessary to ensure accurate application of the allocation
methodologies.

IDHS Response:

Accepted. The Department will review current procedures for preparing the cost allocation calculations to
determine if any changes are necessary. Prior period adjustments will be made to adjust for the incorrect
allocations identified in the audit.




                                                                                             (Continued)
                    Overview of the Office of the Inspector General


                                      Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly
present the Agency’s financial position, results of operations and cash flow. Performance
audits review the economy, efficiency and effectiveness of SSA’s programs. OA also
conducts short-term management and program evaluations focused on issues of concern to
SSA, Congress and the general public. Evaluations often focus on identifying and
recommending ways to prevent and minimize program fraud and inefficiency, rather than
detecting problems after they occur.

                             Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources.
In addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to
ensure that OIG offices nationwide hold themselves to the same rigorous standards that we
expect from SSA, as well as conducting investigations of OIG employees, when necessary.
Finally, OEO administers OIG’s public affairs, media, and interagency activities, coordinates
responses to Congressional requests for information, and also communicates OIG’s planned
and current activities and their results to the Commissioner and Congress.


                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to
fraud, waste, abuse, and mismanagement of SSA programs and operations. This includes
wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters, representative
payees, third parties, and by SSA employees in the performance of their duties. OI also
conducts joint investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector
General on various matters, including: 1) statutes, regulations, legislation, and policy
directives governing the administration of SSA’s programs; 2) investigative procedures and
techniques; and 3) legal implications and conclusions to be drawn from audit and
investigative material produced by the OIG. The Counsel’s office also administers the civil
monetary penalty program.
